■V

-/

No.

in h ie
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
sr:

BERNARD F. VERRETT- PETITIONER, PRO SE
VS.
DARREL VANNOY - RESPONDENT(S)
PROOF OF SERVICE
I, Bernard F. Verrett, declare thal on this dale, January „__, 2021, as required by
Supreme Court Rule 29, I have served the enclosed "MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS” and the "PETITION FOR A WRIT OF
CERTIORARI” on each party to the above proceeding or tliat party's counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid.
The names and addresses of those served ate as follows:
Hon. Joseph L. (Joe) Waltz, Jr., District Attorney
7856 Main Street
Houma, Louisiana70361
I declare under penalty of perjury that the foregoing istru^ and correct.
Executed on January

2021.
Bernard F. Verrett

35

